     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

April 11, 2011

Report Number: A-07-11-00348

Mr. Pat Shiverdecker
Senior Vice President, Corporate Strategy
Mutual of Omaha Insurance Company
Mutual of Omaha Plaza
Omaha, NE 68175

Dear Mr. Shiverdecker:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by Mutual of Omaha Insurance Company for Fiscal Years 1992 Through 2007.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00348
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Pat Shiverdecker

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL


REVIEW OF PENSION COSTS CLAIMED
FOR MEDICARE REIMBURSEMENT BY
  MUTUAL OF OMAHA INSURANCE
   COMPANY FOR FISCAL YEARS
      1992 THROUGH 2007




                        Daniel R. Levinson
                         Inspector General

                            April 2011
                          A-07-11-00348
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Mutual of Omaha Insurance Company (Mutual) administered Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until
the contractual relationship was terminated on November 5, 2007.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that Mutual claimed for
Medicare reimbursement for fiscal years (FY) 1992 through 2007.

SUMMARY OF FINDING

Mutual did not claim $1,086,837 of pension costs that were allowable for Medicare
reimbursement for FYs 1992 through 2007. This understatement occurred primarily because
Mutual calculated its pension expense using the contributions to the pension plan instead of
computing pension costs in accordance with CAS 412 and 413, as required by the Medicare
contracts. In basing the pension expense on the pension plan contributions, Mutual claimed
$8,079,998 in Medicare reimbursement. We calculated allowable pension costs for this period
in accordance with CAS 412 and 413, as required by the Medicare contracts, to be $9,166,835,
a difference of $1,086,837.

RECOMMENDATION

We recommend that Mutual increase its Final Administrative Cost Proposal (FACP) pension
costs by $1,086,837.

AUDITEE COMMENTS

In written comments on our draft report, Mutual did not concur with our recommendation.
Mutual stated that it is entitled to interest on its unclaimed pension costs and added that pension
costs for October 1, 2007, through December 31, 2007, should be included as allowable pension
costs. Mutual’s comments are included in their entirety as Appendix B.




                                                 i
OFFICE OF INSPECTOR GENERAL RESPONSE

There are no provisions in the Medicare contracts or in the applicable FAR or CAS rules that
would entitle Mutual to earn interest on its unclaimed pension costs. In addition, Mutual did not
submit an FACP for FY 2008 to CMS. For this reason, our audit period, within which we
calculated the allowable pension costs, extended through FY 2007, which ended on
September 30, 2007. Mutual’s assertion that pension costs for October 1, 2007, through
December 31, 2007, should be included as allowable pension costs is therefore outside the scope
of our review. Accordingly, we maintain that our finding and recommendation are valid.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Mutual of Omaha Insurance Company ................................................................1
              Medicare Reimbursement of Pension Costs ........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
               Objective ..............................................................................................................1
               Scope ....................................................................................................................1
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATION .................................................................................2

          FEDERAL REQUIREMENTS ........................................................................................2

          ALLOWABLE PENSION COSTS NOT CLAIMED .....................................................3

          RECOMMENDATION ...................................................................................................4

          AUDITEE COMMENTS.................................................................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................4

APPENDIXES

     A: ALLOWABLE MEDICARE PENSION COSTS FOR MUTUAL OF OMAHA
        INSURANCE COMPANY FOR FISCAL YEARS 1992 THROUGH 2007

     B: AUDITEE COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Mutual of Omaha Insurance Company

Mutual of Omaha Insurance Company (Mutual) administered Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until
the contractual relationship was terminated on November 5, 2007.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that Mutual claimed for
Medicare reimbursement for FYs 1992 through 2007.

Scope

We reviewed $8,079,998 of pension costs that Mutual claimed for Medicare reimbursement on
its Final Administrative Cost Proposals (FACP) for FYs 1992 through 2007. Achieving our
objective did not require that we review Mutual’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at Mutual’s office in Omaha, Nebraska, during June 2008 and July
2009.




                                               1
Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed Mutual’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 1992 through 2007. We also determined the extent to which Mutual
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on Mutual’s historical practices and on the results of our
segmentation review, Review of the Qualified Pension Plan at Mutual of Omaha Insurance
Company, A Terminated Medicare Contractor, for the Period January 1, 1992, to
January 1, 2008 (A-07-11-00347).

In performing our review, we used information that Mutual’s actuarial consulting firm provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined Mutual’s accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Mutual did not claim $1,086,837 of pension costs that were allowable for Medicare
reimbursement for FYs 1992 through 2007. This understatement occurred primarily because
Mutual calculated its pension expense using the contributions to the pension plan instead of
computing pension costs in accordance with CAS 412 and 413, as required by the Medicare
contracts. In basing the pension expense on the pension plan contributions, Mutual claimed
$8,079,998 in Medicare reimbursement. We calculated allowable pension costs for this period in
accordance with CAS 412 and 413, as required by the Medicare contracts, to be $9,166,835, a
difference of $1,086,837.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.



                                               2
CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

Mutual did not claim $1,086,837 of allowable Medicare pension costs for FYs 1992 through
2007. During that period, Mutual claimed pension costs of $8,079,998 for Medicare
reimbursement. We calculated allowable pension costs based on separately computed CAS
pension costs for the Medicare segment and the “Other” segment, in accordance with CAS 412
and 413. Based on the terms of the Medicare contracts, the allowable CAS pension costs for this
period totaled $9,166,835.

The following table compares allowable CAS pension costs with the pension costs claimed on
Mutual’s FACPs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Allowable Pension Costs and Claimed Pension Costs

                                    Medicare Pension Costs
                                     Allowable     Claimed
                 Fiscal Year         Per Audit    by Mutual             Difference
                    1992                 $17,951      $20,387             ($2,436)
                    1993                  60,914       68,585               (7,671)
                    1994                  64,700       98,411             (33,711)
                    1995                  58,188       90,070             (31,882)
                    1996                  60,721      122,349             (61,628)
                    1997                 155,513      112,737                42,776
                    1998                 541,752       89,296              452,456
                    1999                 733,365      270,125              463,240
                    2000                 980,370      244,575              735,795
                    2001               1,078,056       38,704            1,039,352
                    2002               1,338,146      335,855            1,002,291
                    2003                 939,663    1,086,063            (146,400)
                    2004               1,456,435    1,267,497              188,938
                    2005                 696,415    1,398,465            (702,050)
                    2006                 414,527    1,388,774            (974,247)
                    2007                 570,119    1,448,105            (877,986)
                    Total             $9,166,835 $8,079,998             $1,086,837



                                                3
The Medicare contracts required Mutual to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, Mutual based its claim on the contributions to the
pension plan. As a result, Mutual underclaimed $1,086,837 of allowable pension costs.

RECOMMENDATION

We recommend that Mutual increase its FACP pension costs by $1,086,837.

AUDITEE COMMENTS

In written comments on our draft report, Mutual did not concur with our recommendation.
Mutual stated that it is entitled to interest on its unclaimed pension costs “… just as earnings
were credited on the transferred prepayment credits in determining the [Medicare segment’s]
market value of pension assets.” In addition, Mutual stated that pension costs for
October 1, 2007, through December 31, 2007, should be included as allowable pension costs.

Mutual’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Mutual’s comments, we maintain that our finding and recommendation are
valid. Notwithstanding the fact that earnings were credited on the transferred prepayment credits
in determining the Medicare segment’s market value of pension assets, Mutual is not entitled to
interest on the unclaimed pension costs. In our segmentation review (A-07-11-00347), we
determined the interest crediting on prepayment credits and contributions assigned to the
Medicare segment in accordance with CAS 412 and 413 as required by the Medicare contracts.

Furthermore, there are no provisions in the Medicare contracts or in the applicable FAR or CAS
rules to support an interest adjustment or charge on under-reported or over-reported pension
costs—no provisions, that is, that would enable Mutual to earn interest on its unclaimed pension
costs. Article XXII, Section H, of the Medicare contracts specifically provides that interest on
unpaid claims accrues only from the date that the claim is received by the Secretary of Health &
Human Services (the Secretary). Because Mutual did not properly determine its allowable
pension costs or make a timely claim for reimbursement of the full amount of those allowable
costs, interest costs due to the delay in payment of those claims would nevertheless be
unallowable under Article XIII, Section B, of the Medicare contracts, which provides that “in
determining the cost allowable under this agreement, the Secretary shall take into account the
amount which is reasonable and adequate to meet the costs which must be incurred by an
efficiently and economically operated Plan in carrying out the terms of this agreement.”

In addition, pension costs for the period October 1, 2007, through December 31, 2007, are
associated with FY 2008. Because Mutual did not submit an FACP for FY 2008 to CMS, our
audit period and calculation of allowable pension costs extended through FY 2007, which ended
on September 30, 2007. Mutual’s assertion that pension costs for October 1, 2007, through
December 31, 2007, should be included as allowable pension costs is therefore outside the scope
of our review.


                                                 4
APPENDIXES
                                                                                                                                                                Page lof7

                                                 APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR 

                                                       MUTUAL OF OMAHA INSURANCE COMPANY 

                                                         FOR FISCAL YEARS 1992 THROUGH 2007 


                                                                                         Total                               "Other"         Medicare             Total
     Date                                          Description                          Company                              Segment         Segment             Medicare

      1991            Allocable Pension Cost                                                                                                        $0
                                                                                    ,                   """0'0'.1.-.

     1992 
       'Contributions                                              21      $4, 154, 102_,_~ ~~!.1?~,19.9.                 $0
    9.25% 
       iI>isc()ulltfor Interest                             'yr              ($258,198)
                                                                                 ~~~~~~~~~~~~------~~
                                                                                                          ($258,198)                 $0
January I, 1992 
 Present Value Contributions                                 1L $3,895,911             $3,895,911                   $0 

                  .Prepayment CreditAppJi.(!d                                 51,-._-'-$2_0_0'-,5_47_ _----'-$_20_0-'-,5_4_7_ _ _ _-'$_0----; 

                   Present Val u~(f,'lIl1~i.l1g...                            &.. ..~~.!9~()!~?8        $4,096,458                   $0

Januaryl,1992 
 ICAS FundingTarget                                            1L        $6,122,851                           $6,261,867 
     ($139,016)
                 •Percentage Flinded                                          fu:                                                65.42% 
         0.00% i
                  Funded Pension 
                                            2L                                             $4?996,458 
            $0
                 jAllowable Interest 
                                                                                         $255,263 
            $0
                 IAII()(;able Pension Cost 
                                .III                                             ~~,351,721              $0
    1992 
        Fiscal Year Pension Cost                            ... 12/!                                               $3?~()~??? 1            $0
               .j~t:~!(;ll:r(!.!=Q.I3* Percentage                 .~_~._.J~L .... .                                                0.55% i      100.00%

                     IAllowable Pension Cost                                                                                    $17,951             $0              $17,951

       1993 
        Contributions                                                      $8,597,302                           $8,597,302 
           $0
      9.21% 
        Discount for Interest                                               ($479,104)                           ($479,104) 
          $0
Ja'!lI!1ryl, .1993 
 Present Value Contributions                                        $8,118,198                           $8,118,198 
           $0      i
                     Prepayment Credit Applied                                                  $0                                   $0             $0
                    J~r<;:se!l!ya~lIe of Fundi~g                                        $8,118,198                           $8,118,1?~.            $0
                ~·-i········---·-···········'·

January . 1, .19~3JC:::A§Fun~illg Target                                                $7,740,511                           .$7,7()9,400      ($19,889)
                    jPercentag<;:Funded                                                                                         100.00% 
         0.00% 

                     Funded Pension Cost                                                                                     $7,760,400 
            $0 

                     Allowable Interest                                                                                        $457,988 
            $0 

                     Allocable Pension Cost                                                                                  $8,218,388 
            $0 

     1993            Fiscal Year Pension Cost                                                                                $7,251,721 
            $0 

                     Medicare LOB* Percentage                                                                                     0.84%         100.00%

                      Allowable Pension Cost                                                                                    $60,914             $0              $60,914
                     !                                                                                           ,
     1994         IContributions
                     e.               .__   ~,
                                                                                        $8,745,94~ .... J. ~8.'?~.?.'~~?....                        $0
    8.93%         IDiscount
        ..~~..--+•..-..,.....       for ..Interest
                              -....~.--                                                  ($452,848)
                                                                 . _•••••• ' _ ••mm• • • ~~--i..:..:.:.L:.~-+
                                                                                                                              ($452,848),           $0
                                                                                                                     _ _,.=.;.;;.;;;=..;~~ ______--=-~
January I, 19?4 	 /present Value Contributions                                          $8,293,097                     ...   $~,~93,097             $0
                  !prepayment Credit Applied                                              $390,751                             $390,751             $0
                  'Present Value of Funding                                             $8,683,848                           $8,683,848             $0

January I, 1994 	 CAS Funding Target                                                    $8,325,995                           $8,329,350        ($3,355)
                  Percentage Funded                                                                                             100.00%          0.00% 

                  Funded Pension Cost                                                                                        $8,329,350             $0 

                  Allowable Interest                                                                                           $433,490             $0 

                  Allocable Pension Cost                                                                                     $8,762,840             $0 

     1994         Fiscal Year Pension Cost                                                                                   $8,626,727             $0 

                  Medicare LOB* Percelltage                                                                                       0.75%        100.00%

                    [Allowable Pension Cost                                                                                     $64,700             $0·             $64,700
                                                                                                                                                                                                                                                                                 Page 2 of7




                                                                                                                                                                                                                     Total                                                         Total
         Date                                                                                                                             Description                                                                                                                             Medicare

        1995                  i Contributions                                                                                                                                                                      $9,114,637         $9,114,637                     $0 

       9.16%                  iPiscolintfor Interest                                                                                                                                                                ($507,319)         ($507,319) i
I                $0 

   January 1995           ~
                              :Present Value Contributions
                              '"   ~"'""'~'"'y,_,_n-~              __   r'~""_
                                                                                                                                                                                                                   $8,60?,~18       .~.1~!607,~~+                    $0 

                              ;J>repaYITIC::Il!Credit Applied 	                                                                                                                                                      $386,154          $386,154             I        $0
                              1Present Value of Funding 	                                                                                                                                                          $8,993,472 ..•... $8,993,472                      $0
                                                                                                                                                                                                                                 ,
                                                                                                                                                                                                             I
                                                                                                                                                                                           ,'.'ON


 . J!illll!iry} , 1995          CAS FundingI!iEgc::t ....                                                                                                                                                          $?,88!!~84         $7,881,384                     $0
                               'Percentage Funded                                                                                                                                                                                        100.00%                  0.00%
                                Funded Pension Cost                                                                                                                                                                                   $7,881,384                     $0
                                Allowable Interest                                                                                                                                                                                      $441,772                     $0
                                Allocable Pension Cost                                                                                                                                                                               .$8,323,156                     $0
         1995                   Fiscal Year Pension Cost                                                                                                                                                                              $8,433,077                     $0
                                Medicare LOB* Percentage                                                                                                                                                                                   0.69%                100.00%

                                                                                                                                                                                                                                                    "-"····-i
                         ...,.Allowable Pension Cost 	                                                                                                                                                                                   $58,188                     $0               $58,188

         1996                 I Contributions                                                                                                                                                                    $33,789,310         $33,789,310                     $0 

        9.00%                 · Discount for Interest                                                                                                                                                            ($1,809,836)        ($1,809,836)                    $0 

   January 1.!..!.~~          I Present Value Contributions
                                              _r'___                                                                        ___
                                                                                                                                                                                                     ...+.       $31,979,474         $31.!~?~!474                    $0 

                                                       k
                                                           ~
                                                               Y
                                                                   k
                                                                        M
                                                                            y
                                                                                .
                                                                                    "
                                                                                        .
                                                                                            ,
                                                                                                .
                                                                                                    .
                                                                                                        .
                                                                                                            ~
                                                                                                                .
                                                                                                                    ~
                                                                                                                        y
                                                                                                                                  ~
                              .IPrepaylTlc::Il!~redit Applied                                                                                                                                                     $1 ,213,955~"       $1,213,955                     $0
                              iPresent Value of Funding                                                                                                                                                          $33,193,429         $33,193,429                     $0

   !anuary 1 1996               CAS Fundillg.T!iEg.c::!...                                                                                                                                                       ..~.IQ,QOO!.~05     $10,0001605                     $0 

                               IPercentage Funded                                                                                                                                                                                         100.00%                 0.00% 

                              I Funded Pension Cost                                                                                                                                                                                  $10,000,605                     $0 

                              ,Allowable Interest                                                                                                                                                                                        $497,269                    $0 

                                Allocable Pension Cost                                                                                                                                                                             i $10,497,874                     $0 

         1996                 IFiscal  Year Pension Cost 	                                                                                                                                                                    ··~··+·--$9:·954,I9.5                  $0
                               ..-.--.
                               ~


                                Medicare LOB* Percentage 	                                                                                                                                                                                  0.61%               100.00%

                                   Allowable Pension Cost 	                                                                                                                                                                              $60,721                     $0               $60,721

         1997                  Contributions                                                                                                                                                                       $7,972,335        $7,972,335                      $0
        9.00%                  Discount for Interest                                                                                                                                                                ($432,020)        ($432,020)                     $0
_.~!lllllary}, 1997            Present Value Contributions                                                                   o        _~~',,~"Nff"""."m"""="_~""'"",~,,~y   __     	
                                                                                                                                                                                 ~,,~
                                                                                                                                                                                                                   $7,~49.2}5       .E.540,315                      . . ~Q....
                              !Prep!iYlTlentCredit Applied 	                                                                                                                            _.........   ,., 

                                                                                                                                                                                                                 $11,000,756        $11,000,756                      $0      .
                                                                                                                                                                                                             I
                              /Present Value of Funding 	                                                                                                                                                        $18,541,071        $18,541,071                      $0
                              I
                         . l .
   January 1,19.97 	          ,gAs FlIll~illg Target                                                                                                                                                                                                                 $0 

                              · Percentage Funded                                                                                                                                                                                       100.00%            I      0.00% 

                              · Funded Pension Cost                                                                                                                                                                                 $11,000,756                      $0 

                              ,.!Allowable Interest                                                                                                                                                                                          $0                      $0

                              IAllocable Pension Cost                                                                                                                                                                               $11,000,756                      $0 

         1997                    Fiscal Year Pension Cost                                                                                                                                                                           $10,875,036                      $0 

                                 Medicare LOB* Percentage                                                                                                                                                                                 1.43%                 100.00% 


                                   Allowable Pension Cost 	                                                                                                                                                                             $155,513                     $0              $155,513
                                                                                                                                                                           Page 3 of7




                                                                                            Total                                  Medicare                                  Total 

            Date 	                                            Description                                                          Se ment                                  Medicare 


          1998               Contributions                                               $68,068,955          $68,068,955                                      $0
         8.00%              ·Discount for Interest                                       ($4,827,854)         ($4,827,854)                                     $0
     January ..1L.!2~8 .... : Present Value Contributions                                $63,~il,!Ql          $63,241,101                                      $0
                            :Prepayment Credit Applied                                   $21,501,581          $21,50 I ,581                                    $0
                             Present Value of Funding                                    $84,742,682          $84,742,682                                      $0
                                                                                . +_ ....
   . J!\!l~.!\l):l? 19~~~ .. 1'"~~_f.!:l.~.~ingTl\rget 
                     . ~J ...~~!~501,581            "._~~!.!~Q.!~~1.....              $0
                                                                                                                                             _Mr_g_y ____ , __' ___'_m_'




                             : Percentage Funded 
                                                                   100.00%               0.00%
                             •Funded Pension Cost                                                               $21,501,581                   $0
                             iAlIowable Interest                                                         .- i
                                                                                                                            $0                $0
                              Allocable Pension Cost                                                        •.. $2.1.?"QJ.!~81                $0
                                                                                                                                    ""A"''''''''''''",,~~_'',~_''"



             1998 	           Fiscal Year Pension Cost                                                        ~1~,~76,375                     $0
                              Medicare LOB'" Percentage                                                                2.87%             100.00%

                               ,Allowable Pension Cost                                                            $541,752                                     $0              $541,752

            1999               ·Contributions                                            $12,971,440          $12,971,440                  $0
           8.00%                Discount for Interest                                       ~$680,953)           ~$680,953)                $0
.. .... .:!!\!l.~!\r:ll, 199~ ...... ifres~nt~!\I~e Contri~l:It.~~~" .....        ' $12,290,487
                                                                              --'-1---'-'- ......... 
      __~!~~J.Q!~87                  $0
                               I      Prepayment Credit Applied                   I. 	   $22,675,144          $22,024,268            $650,876
                                     'Present Value of Funding                           $34,965,631          $34,314,755            $650,876

     Janul\ry 1, 1999           ICAS FundingTarget 
                             .. ~_..~2.1§75, 144        _.!~.!Q~~1~68           ~~50z.~L~.
                                 Percentage Funded 
                                                              100.00%             100.00%
                                 Funded Pension Cost 
                                                        ~22,024,268            $650,876
                                ·Allowable Interest                                                                    $0                  $0
                                IAil~~~bl-~-Pension Cost                                                      $22,024,268            $650,876
            1999                 Fiscal Year Pension Cost                                                     $21,893,596            $488,157
                                 Medicare LOB'" Percentage                                                          1.12%             100.00%

                               · Allowable Pension Cost
                           _ ' e "'" ____   ~~=~~~"'_"'"
                                                                                                               "'$245;208            $488;157                                  $7:13,365

            2000 	             :Contributions                                            $38,399,115          $38,399,115                 $0
                               ,Discount for Interest                                    ($2,519,551 )        ($2,519,551)                $0
     January 	                  Present Value Contributions                              $35!87~!~.~4         $35,879,564                 $0
                                Prepayment Credit Applied                                $22,839,546          $22,114,599           $724,947
                                Present Value of Funding                                 $58,719,110          $57,994,163           $724,947

     January 1, 200Q.. 	 CAS Fundi l1 g'fa,rget                                          $22,839,546          $22,114,599           $724,947
                           Percentage Funded                                                                      100.00%            100.00%
                         I Funded Pension Cost                                                                $22,114,599           $724,947
                         i Allowable Interest                                                                          $0                 $0
                         i Allocable Pension Cost
                               I"~""'~W      ___ ~~~~   ~~"                                                   .~~~?E~!?99           17~1?~i7._
          2000           'Fiscal Year Pension Cost                                                            $~2,092,016           E06,429
                           Medicare LOB'" Percentage                                                                   1.24%         100.00%
                               I
                               i
                           . ;AlIowable Pensiol1.fost                                                             $273,941          $706,429                                   $980,370
                                                                                                                                                     Page 40f7




                                                                                            Total 
               "Other"             Medicare         Total 

      Date                                                  Description                    Company 
              Segment             Segment         Medicare 

                                                                                       ,
                         t""_ _                                                                                         ____

                                                                          "~'~'~ii2:414,462
                     c                        A'_H'~_'"~"
                                                                                                            ""~~,,,~w          u#~~




     2001                    Contributions                                                                      $12,414,462                  $0
    8.00%                    Discount for Interest                                           ($613,091)           ($613,091)                 $0
January 1,~QOl               Present Value Contributions                                   $11,801,371          $11,801,371                  $0
                         Z~"~£~rl!!~nt Credit~l'l'li ed~."~""~            ~-~"''',     !
                                                                                           $24,666,450          $23,842,134            $824,316
                         !Present Value of Funding                                         $}~,467,821       .$35,~43,505              $824,}16
                         ;
January 1,2001           !CAS Funding Target                                               $24,666,450          $23,842,134            $824,316
                             Percentag~.Funded                                                                      100.00%             100.00%
                           Funded Pension Cost                                                                  $23,842,134            $824,316
                           Allowable Interest                                                                             $0                 $0
                         ,:Allocable Pension Cost                                                               $23,842,134            $824,316
      2001               L~~£!1I.Year Pension ~.~~L"". "~. ~                                                    $2}?4.tQ,250           $7~~~.?4
                         iM(:dicare LOB* Percentage .                                                                  1.19%            100.00%

                             Allowable Pension Cost                                                                     $278,582       $799,474        $1,078,056

     2002                    Contributions                                                 $48,482,343 
       $48,482,343                    $0
    8.00%                JI.>i~~~unt for Interest                                      I   ($3,219,587) 
       ~$3,219,587)                  $0
January 1,2002           [Present Value Contributions                                      $45,262,756 
        $45,~62, 756                  $0
                         IPr~payment Credit Applied                                        $21,967,656 
        $20,823,625           $1,144,031
                          Present Value of Funding                                         $67,230,412 
        $66,086,381           $1,144,031

Ja!1u.a:ry I, 2002       IC"~~~f.:.unding Target                                                            "" ~.2.0,82~?625          $.1 ,144,0~"
                . "~".~rce!1!~t:~unded                                                                              100.00%                100.00%
                      Funded
                      ....
                                                Pension Cost
                           .......... .............. 

                             ._,   ,.""",,,    _-,,
                                                                                                               $20,823,625            $1,144,Q31
                     'Allowable Interest                                                                                  $0                    $0
                      Allocable Pension Cost                                                                   $20,823,625            $1,144,031
      2002            Fiscal Year Pension Cost                                                                 $21,578,252            $1,064,102
                      Medicare LOB* Percentage                                                                        1.27%                100.00%

                         ,Allowable Pension Cost                                                                        $274,044      $1,064,102       $1,338,146

     2003                    Contributions                                                 $20,200,000          $20,200,000                  $0
    8.00%                    Discount for Interest                                           ($430,484)           ($430,484)                 $0
January 1,2003               Present Value Contributions                                   $19,769,516          $19,769,516                  $0
                         .;~E(:l'IlYI!!~nt Credit Al'£I!(:~~..."                           $24,040,981          $23,890,913            $150,068
                         !}>resent Value ofFun~illg                                        $43,810,497        . ~43,6~g,429            $1?g,g68
                                                                                       ,
                                                                                     ..~



January 1,2003           leAS Funding Target                                               $24,04Q,981         $23,890,913             $150,068
                             Percentage~unded                                                                       100.00%             100.00%
                           Funded Pension Cost                                                                $23,890,913              $150,068
                         . Allowable Interest                                                                             $0                 $0
                         I~lIocable Pension Cost                                                            :J23,890,913              "" $1.?g,068
      2003 	             :~!~,,:I")' ear Pension Cost                                                       ..~2.3,12"4, 091           ~~~~.,?5J
                         ;Medicare LOB* Percentage                                                                    2.34%             100.00%

                             Allowable Pension Cost                                                                     $541,104       $398,559         $939,663
                                                                                                                                                                                                                                   Page 5 of7




                                                                                                                                                                                                                                     Total
      Date 	                                          Description                                                                                                                                                                   Medicare

      2004                 I Contributions                                                    $20,000,000 ........~. $20,000,000                                                                             $0 

     8.00%            iDiscount for Interest
                     1'"
                      >.
                                                                                              ($1,011,704) i ($1,011,704) .                                                                                  $0 

January!J_~~~Q,i . . J..Pr(!s~~~!:~':I~ Contributions                                       . $18,988,296
                                                                               '~~"""'''''I''''''''                        ~
                                                                                                                             ! $18,988,296•••• :
                                                                                                ............................ •••••- ••         ---.~                                       ~. 

                                                                                                                                                                                                             $0
                                                                                                                                                                                                           "~"~




                      !J>r~p!1Y111(!!1tCredit Applied                                       : $23,676,670 . $22,692,191 I                                                                              $984,479
                      jPresent Value of Funding                                               $42,664,966                       $41,680,487                                                            $984,479

Januaryl, 2004              CAS Funding..!!1rg(!t 	                                                 $23,676,670                     $22,692,191                                                        ~.9. 8.~.?~7?
                           ,Percentage Funded                                                                                           100.00%                                                          100.00%
                            Funded Pension Cost                                                                                     $22,692,191                                                        $984,479
                            Allowable Interest                                                                                               $0                                                                  $0
                            Allocable Pension Cost
                                   ''''"m~"'   '   ~~~'"""   "
                                                                                                                                    $22,692,191                                                        $984,479
      2004 	                Fiscal Year Pension Cost                                                                                $22,991,872                                                        $775,876 

                            Medicare LOB'" Percentage                                                                                     2.96%                                                          100.00% 


                           .Allowable Pension Cost
                      ,~,_' +=W"~,'-'=""mu
                                                                                                                                             $680,559                                                  $775,876                      $1,456,435

     2005         1Contributions                                                                                $16,000,000                                                                                         $0 

    8.00%                  i
                   Discount for Interest
                  I······..······
                                                                                            I
                                                                                           ($798,815)             ($798,815)                                                                                        $0 

January .1!..~QQ,?_~ent .y.!1tlJ~ ..Contributions                                    : $15,201,185            I $15,201,185        .
                                                                               .-.-.-~ .............•..•..- - .--·~··· ..·....~··-·r··
                                                                                                                                                                                                                    $0
                  'J>repaYJ11(!ntCredit Applied                                      I $23,068,231              $23,068,231                                                                                         $0
                  !Present Val~~ of Funding                                            $38,269,416 '$38,269,416                                                                                                     $0

January   1~   2005        CAS Funding.I!1~get 	                                                    .~~~!g~~!~} 1              $23,068,231                                                        ...................... $0 ..+.
                            Percentage Funded                                                                                      100.00%                                                                0.00% :
                            Funded Pension Cost                                                                                $23,068,231                                                                   $0
                            Allowable Interest                                                                                           $0                                                                  $0
                            Allocable Pension Cost                                                                           I $23,068,231
                                                                                                                          w'~t,"·,·~H=NNNNNm_'_~'~-_~<'~_"~_~.
                                                                                                                                                                                                             $0
      2005 	               ;Fiscal Year Pension Cost                                                                           ~~~,97 4,221                                                            $246,120
                            Medicare LOB'" Percentage                                                                                 1.96%                                                             100.00%

                           Allowable Pension Cost 	                                                                                          $450,295                                                  $246,120                        $696,415

        2006                Contributions                                                           $66,000,000                     $66,000,000                                                                     $0
       8.00%                 Discount for Interest                                                  ($4,437,644)                    ($4,437,644 )                                                                   $0
J!1!1.llary} ,2006           Present Value Contributio.n:;:.s::.................              .~.~.!.2~~!.~. 56                     $61,562,356                                                                     $0
                           'J>rC!p!1Y111C!!ItCredit Applied                                 I $18,882,834                           $18,882,834                                                                     $0
                           jJ>resent Value of Funding                                       , $80,445,190                           $80,445,190                                                                     $0

January lL~gQ~ ...~c~i·~~·~~iEgTarget 	
                                                                                                ,             "~_,_o',o,"0,,"',,,·,_···" .."··_.. __""·"   .. ,"'", ",,'"   ""0,, • • "   .t­

                                                                                          ..• ~ 18,882,83~.....~ ....~.!.~.'-~8.~!.~1±-..J ..                                                                  $0
                   jPercentage Funded                                                                                      100.00%                                                                          0.00%
                   :Funded Pension Cost                                                                                             $18,882,83~                                                                $0
                    Allowable Interest                                                                                                      $0                                                                 $0 

                   lAii~~abl~ Pension Cost                                                                                         $18,882,834                                                                 $0 

     2006           Fiscal Year Pension Cost                                                                                       $19,929,183                                                                 $0 

                    Medicare LOB'" Percentage                                                                                            2.08%                                                            100.00% ' 


                                                                                                                                             $414,527                                                              $0                  $414,527
                                                                                                                                   Page 6 of7




                                                                                 Total                          Medicare             Total
           Date 	                                   Description                                                                     Medicare

           2007              Contributions                                             $0             $0                $0 

          8.00%              Discount for Interest                                     $0             $0                $0 

     January"l"t~~()07       Present Value Contributions
                                       '""',W'~~·" ~,,,",,,,,   ,"   ~""_~,
                                                                                       $0             $0                $0 

                            Prepayment Credit Applied                         $12,864,759    $12,562,829          $301,930
                            ipresent Value of Funding                         $12,864,759    $12,562,829          $301,930

"" ~"Jan.\J.~!I 1,2007      ;fi\~!~ul1ding Targ~t"~ .. ".                     112~864,759   . J)}!?~~!829         E()},2~().
                              Percentage Funded                                                   100.00%          100.00%
                            I Funded Pension Cost                                             $12,562,829         $301,930
                            iAllowable Interest                                                        $0               $0
                              Allocable Pension Cost                                         $1"~!?~~?829        ""~"30. !.!93Q.
           2007               Fiscal Year Pension Cost                                       $l~, 14~!830         $22~,~~8
                            )Medicare LOB'" Percentage                                              2.43%           100.00%

                            Allowable Pension Cost 	                                            $343,671          $226,448             $570,119


     '" Line of business.

FOOTNOTES

 lL In resolution of our prior pension costs claimed report (A-07-94-00743), the Centers for Medicare & Medicaid Services prepared and
     provided Mutual of Omaha Insurance Company (Mutual) with a pension closing agreement and related supporting documentation. We
     obtained the 1991 allocable pension costs from those documents. To date this pension closing agreement has not been executed.

 2L 	 We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
     contributions included deposits made during the plan year and accrued contributions deposited after the end of the plan year but within
     the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the pension
     segmentation review (A-07-11-00347). The amounts shown for the "Other" segment represent the difference between the Total
     Company and the Medicare segment.

 'JL We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the 

     contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference 

     between the present value of contributions (at the valuation interest rate) and actual contribution amounts. 


 1L The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the plan
     year (PY). For purposes of this Appendix, we deemed deposits made after the end of the PY to have been made on the final day of the
     PY, consistent with the method mandated by the Employee Retirement Income Security Act.

 ~   A	 prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created
     when contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A prepayment credit is
     carried forward, with interest, to fund future CAS pension costs.

 QL The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is
     available to cover the CAS funding target measured at the first day of the PY.
                                                                                                                               Page 70f7


 1L The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal 

     Acquisition Regulation (FAR) 31.205-6U)(2)(i). 


     For PYs 1992 through 1994, the Medicare segment's negative CAS funding target represented a refund due to the Federal Government
     for costs that were previously charged. We treated this as a credit that is available to fund future CAS pension costs of the segment. In
     accordance with the amended CAS 412.50(a)(vi), the accumulated value of these prior years' credits was reflected as an assignable cost
     credit and amortized over 10 years.

     The 1992 "Other" segment CAS funding target was netted against $588,730 of accumulated credits associated with prior years' negative
     CAS pension costs.

 ~   The
      	  percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the PY. Because any
     funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(I) (as amended), the
     funded ratio may not exceed 100 percent. We computed the percentage funded as the present val ue of funding divided by the CAS
     funding target. For purposes of illustration, the percentage of funding has been rounded to four decimals.

 2i. We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the interest on
    contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-6G)(2)(iii),
    which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target, less the prepayment
    credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

ill The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

12/ We converted the PY (January 1 through December 31) allocable pension costs to a fiscal year (FY) basis (October 1 through
    September 30). We calculated the FY pension costs as 1/4 of the prior year's costs plus 3/4 of the current year's costs.

13/ We calculated allowable pension costs of the Medicare and "Other" segments based on the Medicare line of business (LOB) percentage
    of each segment. The Medicare segment charged 100 percent of its pension costs to Medicare. The "Other" segment charged only a
    portion of its pension costs to Medicare. We determined the LOB percentages based upon information provided by Mutual.

14/ We computed the allowable Medicare pension cost as the FY pension cost mUltiplied by the Medicare LOB percentage. Pursuant to
    CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the Medicare segment's
    direct pension costs plus "Other" segment pension costs attributable to indirect Medicare operations.
                                                                                                  Page 1 of 2



                   APPENDIX B: AUDITEE COMMENTS 



MUTUAL   ofOMAHA   INSVRANCE COMPANY      PAT SHIVERDECKER
Mutual of Omaha Plaza                     Senior VIce President
                                          Corporate Strategy
Omaha, NE 68175                           402-351-2257
4023427600                                pat.shlverdecker@mutualofomaha.com
mutualofomaha.com




March 15, 2011

By U.S. Mail and Email

Mr. Patrick J. Cogley
Regional Insfector General for Audit Services
60 1 East 12 Street
Room 0429
Kansas City, MO 64106

Re: Report Number A-07 -11-00348

Dear Mr. Cogley:

This letter provides the written comments of Mutual of Omaha Insurance Company to the
draft Report referenced above issued by the Office of Inspector General regarding the OIG's
review of the pension costs claimed for reimbursement by Mutual under its Medicare
contract for fiscal years 1992 through 2007.

Mutual does not concur with the recommendation in the Report that Mutual increase its
FACP pension costs for the fiscal years 1992 through 2007 by $1,086,837. Mutual believes
that the correct amount by which its FACP pension costs should be increased for those
years is $1,162,319. Mutual believes that the allowable pension cost for the Medicare
segment for the 2007 calendar year is $301,930 and the total allowable for 2007 is
$645,601, not $570,119 as indicated in the table on page 3 of the report. For 2007, CMS
incorrectly included only $226,448 of allowable pension costs for the Medicare segment
pursuant to its fiscal year adjustment as of September 30 (footnote 12). However, the
remaining $75,482 should be included as allowable pension costs for the period of
October 1, 2007 through December 31, 2007.

In addition, Mutual believes that it is entitled to interest on the $1,162,319 of allowable
pension costs just as earnings were credited on the transferred prepayment credits in
determining the market value of pension assets. Based on the CAS 412 assumed valuation
interest rate of 8% accumulated from 1992 through 2007, Mutual is entitled to interest in the
amount of $2,224,573 as shown on the attached summary of Medicare Segment Pension
Costs. Mutual will incorporate its claims for the allowable pension costs and interest into its
discussions with CMS on the termination of Mutual's Medicare contract and the closing of
the Medicare segment of its pension plan.

Thank you for the opportunity to provide our comments on the Report.

Sincerely, •

Ittt~~
Pat Shiverdecker
Senior Vice President
Corporate Strategy
                                                                                                               Page 2 of 2




   Summary of Mutual of Omaha Medicare Segment Pension Costs

                     Claimed Costs                       Allowable Costs             DlffTotal
Fiscal                                                                               Allowvs      Accum
Year      Indirect      Direct        Total      Indirect     Direct       Total     Claimed      @8.0%*
1992        20,387                     20.387      17,951                   17,951      (2,436)      (2,533)
1993        68,585                     68,585      60,914                   60,914      (7,671)     (10,714)
1994        98,411                     98,411      64,700                   64,700     (33,711)     (46,631)
1995        90,Q70                     90,Q70      58,188                   58,188     (31,882)     (83,518)
1996       122.349                    122,349      60,721                   60,721     (61,628)    (154,293)
1997       112,737                    112,737     155,513                  155,513     42,776      (122,149)
1998        89,296                     89,296     541,752                  541,752    452,456      338,633
1999       270,125                    270,125     245,208     488,157      733,365    463,240      847,493
2000       244,575                    244,575     273,941     706,429      980,370    735,795     1,680,520
2001        38,704                     38,704     278,582     799,474    1,078,056   1,039,352    2,895,887
2002       335,855                    335,855     274,044    1,064,102   1,338,146   1,002,291    4,169,941
2003       800,800      285.263      1,086.063    541,104     398,559      939,663    (146.400) 4,351,280
2004     1,005,741      261,756      1,267,497    680,559     775,876    1,456,435     188,938 4,895.878
2005       707,715      690,750      1,398,465    450,295     246,120      696.415    (702,050) 4.557,416
2006       649,579      739.195      1,388,774    414,527                  414,527    (974,247) 3,908,793
2007       766,855      681,250      1,448,105    343,671     301,930      645,601    (802,504) 3,386,892
Total    5,421,784     2,658,214    8,079,998    4,461,670   4,780,647   9,242,317   1,162,319
                                 Interest accumulated at 8.0% on above amounts: 12,224,5731

                                                     Total Principal plualnterest    3,386,892


          * Assumes mid yr recognition of current year difference. Also $75,482 was added
         to the 2007 OIG Allowable Direct cost.




                                                                                                                  3/10/2011
